oig.nsf.gov     Semiannual
                   Report
              to the Congress




                Yesterday...Today...Tomorrow...




               SEPTEMBER 2000
                               Cover Photographs and Credits




                     A                             B                               C

A       The height of this lava fountain in Hawaii was recorded at 1,000 feet.
        Credit: National Science Foundation
B       Satellite views from the bottom of a tower.
        Credit: Dynamic Graphics
C       A child inspects the “Wall of Lights” exhibit at the San Francisco Exploratorium.
        Credit: San Francisco Exploratorium




        The March 2000 Semiannual Report (23) to the U.S. Congress was designed by Sherrye L. McGregor and
Belinda M. Robinson.

Sherrye McGregor is the Outreach and Oversight Attorney for NSF’s Office of Inspector General. Ms. McGregor
coordinates the OIG Outreach and Liaison Programs and works with NSF awardees and professional societies to arrange
seminars to discuss ethical and award administration issues in an interactive environment. She also resolves allegations
of wrongdoing, including research misconduct, and coordinates OIG responses to FOIA and Privacy Act requests. Ms.
McGregor was awarded a Juris Doctor from George Mason University School of Law and has been a member of the
Virginia Bar since 1985.


Belinda Robinson is the Writer/Editor and Webmaster for NSF’s Office of Inspector General. Ms. Robinson is currently
a Doctoral candidate at NOVA Southeastern University’s School of Business and Entrepreneurship in Fort Lauderdale,
Florida.




Printed on Recycled Paper
      Letter to the
      Congress of the United States
        In January of this year I assumed the responsibilities and duties of Inspector General
of the National Science Foundation (NSF). NSF is celebrating its 50th year as the only
Federal agency devoted to supporting basic research in science, mathematics and engineering
across all fields, and math and science education at all levels. During the past several
months I have observed and learned about the challenges that face NSF and opportunities
for the Office of Inspector General (OIG) in that context. I am encouraged by the OIG
working relationships that have developed with the National Science Board, the Director
and other officials within NSF, Members of Congress and their staffs, and the Inspector
General community.

       This report summarizes significant OIG activities during the period April 1 through
September 30, 2000. The OIG staff remains highly dedicated to improving government by
     assuring efficiency and integrity in NSF’s portfolio of programs. We reviewed internal
        functions of NSF and audited external awardee institutions, suggesting
          improvements in controlling credit card use and in assessing cost-sharing
           compliance. Cost-sharing requirements provide NSF with management
           challenges if awardees are not able to meet their program objectives. Cost-
           sharing principles and specific short-falls are discussed in this report. We hope
          that these findings will assist NSF in improving its administration of this important
        award requirement.

        Several investigations focused on computer intrusions. These investigations are
technically challenging and consume significant resources. I appreciate the assistance that
we received from other OIGs, especially the United States Postal Service OIG. We are
working with NSF to identify coordinated ways in which to improve computer security.
With NSF’s increased reliance on electronic systems, designed to facilitate programmatic
and financial transactions, the security of these systems will remain an important challenge
for us.

        In addition to focusing on audit and investigative priorities, we took time to evaluate
our internal structure and to revise our mission and vision statements. We revised the OIG
strategic plan by engaging in extensive discussions among all staff, culminating in a two-
day planning retreat. We believe that our planning process sharpened our shared sense of
mission and clarified our understanding of the challenges we face.

       Our new plan reaffirms our commitment to provide independent and objective
information and to do our work in ways that advance NSF’s mission. It strikes a balance
between maintaining our independence and cooperating with stakeholders at NSF and in
the communities it supports. We hope to tailor the traditional oversight role that Offices of
Inspector General play throughout the federal government to the unique circumstances of
NSF and its funded community. Thus, we seek to focus our audits and reviews on issues of
substantial concern and prospective importance to NSF by assessing the risks to achieving
agency goals and selecting and designing projects in light of those risks. We plan to draw on
our experience with misconduct in science to exercise leadership in the federal government
and its IG community in implementing the new government-wide policy on research misconduct.

        Finally, the plan identifies several strategies for improving our internal staffing and
operations to better support our mission. Among these are articulating and refining key policies
and procedures; doing better operational planning and priority setting; improving our
technologies and databases; and developing a more focused approach to staff development
and training. Our planning process also underscored the importance of crafting a coordinated
strategy for dealing with computer security issues so that we can do effective audits and
investigations in this area and address our own security needs.

       A recurrent theme in the plan is our commitment to use our diverse disciplinary expertise
and our knowledge of the agency to do more effective investigations and reviews. Another
theme is trying to do more to help prevent problems. The plan highlights our education and
outreach program as a vehicle for accomplishing our mission in these areas.

        We look forward to continuing our work with NSF and the Congress, assuring the
integrity and efficiency of our Nation’s investment in learning and discovery.

                                              Sincerely,



                                          Christine C. Boesz
                                          Inspector General
                                          September 30, 2000
          We conduct independent and objective audits, investigations, and other
Mission   reviews to support NSF in its mission by promoting the economy, effi-
          ciency, and effectiveness and safeguarding the integrity of NSF programs
          and operations.




          We will use our diverse and talented staff and cutting edge technology to
Vision    have a beneficial effect on NSF and the communities it supports. We will
          help prevent problems, address existing issues in a timely and propor-
          tionate manner, and keep abreast of emerging challenges and opportuni-
          ties.




          PROFESSIONALI
           ROFESSIONALISM
          To follow accepted technical and ethical standards of our disciplines;
          do our work fairly and thoroughly; represent our results accurately,
          objectively, and with a sense of proportion; and complete our work
          within a reasonable time so that it is available for relevant decisions.

          ACCOUNTAB
           CCOUNTABIILITY
          To take responsibility for the quality of the work we do and treat
          similar matters consistently.
Values
          FLEXIBI
           LEXIBILITY
          To think creatively, adopt new ways of addressing issues tailored to
          unique circumstances, and build on successful processes to make them
          better.

          TEAMWORK
          To be respectful of others, seek common ground with them as we do
          our work, and be honest, trustworthy, and straightforward. To be
          cooperative without compromising our independence.




              Established August 2000
          1
     About the IG

          2
     Reporting

C
    Requirements


O          33
N
        Audits


T        23
         23
E
    Investigations


N        37
T
    Statistical Data


S        49
         49
      Acronyms
                                 About the IG
                                             The Inspector General heads the Office
                                     of the Inspector General, and reports directly to
                                     the National Science Board and the Congress.
                                     The OIG recommends policies to promote
                                     economy, efficiency, and effectiveness in admin-
                                     istering NSF programs and operations. It also
                                     aims to prevent and detect fraud, waste, and
                                     abuse; improve the integrity of NSF programs
                                     and operations; and investigate cases involving
                                     misconduct in science.

                                               Dr. Christine C. Boesz assumed her du-
                                     ties as Inspector General of the National Sci-
                                     ence Foundation on January 18, 2000. Prior to
                                     that, she served as Head, Regulatory Account-
                                     ability, at Aetna U.S. Healthcare, a subsidiary of
                                     Aetna, Inc. In that position, Dr. Boesz was re-
Christine C. Boesz, Dr.P.H.          sponsible for establishing and maintaining a com-
                                     pliance program for Medicare legislative and
                                     regulatory activities. She has also held several
                                     government compliance and oversight positions
                                     during an 18-year career with the Health Care
                                     Financing Administration, including Director,
                                     Operations and Oversight, Office of Managed
                                     Care.

                                              Dr. Boesz received her Doctorate in
                                     Public Health from the University of Michigan
                                     School of Public Health (1997). Her M.S. in
                                     Statistics was awarded by Rutgers University
                                     (1967) and she received her B.A. in Mathemat-
                                     ics from Douglass College (1966).




NSF                Semiannual Report Number 23 · September 2000                           OIG
                                        1
                  REPORTING
                  REPORTI
                  REQUIIREMENTS
                  REQUI
                  REQUI
                  REQU  REMENTS
                     Under the I nspector General Act, we report to the
                     Congress every 6 months about what we have been
                           doing. I n particular, we must discuss:




    3, 37           Reports issued, significant problems identified, the value of
                    questioned costs and recommendations that funds be put to
                    better use, and NSF’s decisions in response (or, if none, an
                    explanation of why and a desired timetable for such decisions)



  23, 48            Matters referred to prosecutors, and the resulting
                    prosecutions and convictions

   46, 48           With regard to previously reported recommendations:
                    significant management decisions that were revised, and
                    significant recommendations for which NSF has not
                    completed its response

None to Report      Legislation and regulations that may affect the efficiency or
 This Period        integrity of NSF’s programs

None to Report      Whether we disagree with any
 This Period        significant decision by NSF management

None to Report      Any matter in which the agency unreasonably refused to
 This Period        provide us with information or assistance




 NSF             Semiannual Report Number 23 · September 2000                   OIG
                                     2
                        Office of Audits
        We are responsible for auditing grants, contracts, and cooperative agreements funded by the
Foundation's programs. We review agency operations and ensure that financial, administrative, and
programmatic aspects of agency operations are conducted economically and efficiently. We conduct
financial audits to determine whether costs claimed by awardees are allowable, reasonable, and properly
allocated. Our audits also seek to identify practices that can reasonably be modified in the future,
thereby allowing funds to be used for other purposes that our customers consider more important. We
also conduct performance audits that identify problems so Foundation managers can improve opera-
tions. We are also responsible for the annual audit of the Foundation's financial statements, which
includes evaluations of internal controls and data processing systems.




                                        Highlights
                Issues Involving Administration and Management                               4

                Audits of Education-Related Awards                                           6

                Cost Sharing - A Continuing Risk                                            11

                Polar Program Reviews                                                       15

                Issues Involving Research Project Support                                   17

                Resolution of Prior Audits                                                  19




                                                3
ISSUES INVOLVING
ADMINISTRATION and MANAGEMENT
        As part of our duties under the Inspector General Act of 1978, as amended, we perform reviews
of selected NSF programs and operations to provide management with an independent assessment of
whether desired results and objectives are achieved efficiently, effectively, and in accordance with
prescribed laws, regulations, policies, and procedures. In some cases, as with our credit card audit
discussed below, we directly review an internal function of NSF and make recommendations to improve
it. In other cases, issues identified through our external audits of awardee institutions suggest
improvements that can be made to internal NSF policies or management functions.

Controls Over Credit Card use Need Strengthening

        The use of credit cards for government procurement, which first began in 1989, has grown
significantly. Government-wide credit card purchases increased from $1 billion in 1994 to an estimated
$18 billion in FY 2000. At NSF, the IMPAC1 Purchase Card Program is administered by the Division of
Administrative Services (DAS), whose goal is to expand the use of the program to cover all “micro-
purchases” (i.e., purchases under $2,500). NSF has issued approximately 145 credit cards to staff at
various levels and in 1999 alone employees generated over 7,500 transactions totaling over $2.4 million.

         Concerned about the effectiveness of internal controls over small purchases, the Assistant Director
of the Directorate for Biological Sciences (BIO) asked us to perform an audit of its credit card use. Our
objective was to determine if controls ensured accountability for credit card transactions and safeguarded
NSF funds. We found that although most cardholders and approving officials took their responsibilities
seriously, BIO needs to ensure that its credit card purchases are for valid and authorized purposes. Few
cardholders document their purchases, and not all approving officials document their reviews to the
degree necessary to comply with NSF’s IMPAC Purchase Card Program Manual. Without adequate
documentation, it is difficult to determine whether proper procedures are being followed and purchases
are being made for legitimate government needs. We also found several types of transactions prohibited
by Federal regulations and NSF internal procedures, including two instances of apparent split purchases
(i.e. an attempt to circumvent the $2,500 limit by “splitting” the purchase between two transactions),
unnecessary tax payments, and prohibited travel costs.

        We made several recommendations to BIO in order to strengthen its documentation procedures
and other controls over credit card use. Specifically, we recommended that cardholders maintain adequate
documentation for their purchases, that approving officials thoroughly review the monthly credit card
statements and supporting documentation, that cardholders keep their cards in a safe location, and that
BIO consider a standard policy for requiring pre-approval for certain purchases. We also recommended
that BIO and DAS coordinate a periodic, internal review of approving officials and cardholders to test
for compliance with regulations and procedures, and that DAS reinstate annual training for all participants
in the IMPAC Purchase Card Program to increase awareness among cardholders and approving officials
of their duties and responsibilities. BIO and DAS agreed with our recommendations and have already
begun to address these problems by developing a set of new procedures to supplement those already in
place.
1International Merchant Purchase Authorization Card

NSF                             Semiannual Report Number 23 · September 2000                            OIG
                                                    4
Ownership Dispute Over On-line Database of Federal Research and Development

        The federal government spends more than $75 billion annually to support research and
development in government laboratories, colleges and universities, private firms, and other entities. In
1992, NSF supported the initial development of a research and development database to understand
where and how much the government is spending in each area of science and technology. NSF funded
this project, through a contract with a nonprofit research organization, to support the work of the
federally funded research and development center serving the White House Office of Science and
Technology Policy (OSTP). As we reported in our March 1997 Semiannual Report (pages 20-21), there is a
dispute over the ownership and the cost to develop the database, with the contractor claiming that it developed
the database with its own and not federal funding. Our 1997 audit, however, revealed that the contractor had
been charging costs for the database to its contract with NSF.

        Currently, NSF is negotiating with the contractor for ownership rights to the database. The
contractor claims that it has invested funds in the database project above the amounts that were reimbursed
by NSF under the contract and collected as subscriber revenue from other federal agencies, as authorized
under the NSF contract. The contractor proposed to relinquish its interest in the database by rebilling its
excess costs to NSF. At the request of NSF management, we performed a limited review of contractor-
provided financial statements to verify income from database subscriptions, NSF funding, database
costs, and amortization of capitalized development costs incurred in the development, operations, and
maintenance of the database.

         Our audit identified $59,000 of unreported income and fees from the Department of Energy
(DOE) to organize, catalog, and deliver program funding data, and $635,918 of capitalized development costs
that the contractor had improperly reported in its financial statements as operations and maintenance costs. In
response to these findings, the contractor agreed that the $59,000 from the DOE should have been included as
income, but disputed the auditors’ characterization of development costs because it believes that software
engineers and accountants use different definitions of the term “development.” NSF management is currently
reviewing our recommendations and the contractor’s response in an effort to resolve the ownership and
development cost questions.


Review of Ocean Drilling Program Financial Reports

        The Ocean Drilling Program (ODP) entails an international exploration of the Earth’s crust
beneath the ocean to reveal the composition, structure, and history of the submerged portion of Earth’s
surface. ODP is jointly funded by NSF and seven international members representing over 20 countries,
which together, through Memoranda of Understanding (MOU) provide for scientific and financial
participation, contribute approximately $48 million annually to support this program. In return for financial
contributions, the international members participate with NSF in science planning and sea operations.

       At NSF’s request, we performed a review and verified that the amounts of contributions, receipts,
and obligations were accurately reported in the ODP Financial Reports.




NSF                             Semiannual Report Number 23 · September 2000                               OIG
                                                    5
AUDITS of EDUCATION-RELATED AWARDS

        NSF makes awards in all areas of science, mathematics, and engineering education. Many
programs in the areas of education are funded through NSF’s Directorate for Education and Human
Resources (EHR). Many of the awardees in these programs include school districts, colleges and
universites without strong research programs, and for-profit and non-profit organizations in the private
sector. Such institutions may have little experience with standard federal accounting practices. Thus,
our audits serve a developmental purpose as well as support NSF’s oversight role. Other NSF directorates
also support programs that integrate science, mathematics, and engineering research with education.
We conducted ten financial and compliance audits of 22 education-related awards funded through several
NSF directorates to public school districts, higher education institutions, and for-profit and non-profit
organizations.

         We found that improvements were needed primarily in the area of meeting and supporting required
cost sharing. In particular, each of the six institutions reviewed that required cost sharing either did not
meet or were unable to demonstrate that they had met this obligation. In addition, we questioned over
$2 million charged by the institutions to NSF awards. These questioned costs are primarily due to the
institutions’ lack of adequate systems and internal controls, which prohibit the institutions from determining
whether costs are reasonable, allocable, and allowable.


Public School Systems
        EHR developed an Urban Systemic Initiative (USI) program to assist targeted urban public
schools to implement system-wide improvement in mathematics, science, and technology instruction for
grades pre-K through 12. We found that two public school systems failed to meet their cost-sharing
obligations, and claimed significant amounts of costs that we questioned because they were either
unallowable or unsupported. We also found that in its resolution of a prior audit of a USI award to
another public school district, a school district provided additional documentation to support some of
the questioned costs and agreed to address other compliance and internal control deficiencies.


Southern School District
Claimed $2.8 Million in Unsupported Costs and Cost Sharing

         NSF decided to phase out a $10.1 million cooperative agreement issued to a southern school
district because the school district did not administer its USI award in accordance with NSF’s
programmatic goals. These programmatic concerns prompted our office to review the financial aspects
of this award.

       Under the cooperative agreement, the school district agreed to cost share $4,012,542 during the
award’s 4-year duration. We questioned $1,963,957 of the required cost sharing, because we could not
determine whether the claimed costs were reasonable, allocable to the award, or allowable under NSF
and federal regulations and because the school district did not have documentation to show that it had
met NSF’s cost-sharing requirement for the award.

NSF                             Semiannual Report Number 23 · September 2000                              OIG
                                                    6
       Additionally, of the $7.8 million in direct costs claimed by the school district, we questioned $888,957
because the school district was unable to support $815,799 of various types of costs, and claimed $73,158 of
unreasonable, unallocable, or unallowable costs.

        We also identified significant weaknesses in the school district’s controls for managing this NSF
award. The school district did not retain financial records and supporting documents, report award
expenditures accurately to NSF in its quarterly financial reports, or maintain records that adequately
identified how the award funds were actually spent. In addition, the school district did not always
perform cost analysis or maintain files for procurements as required by federal rules. We also found that
the school system needed to strengthen its internal controls by reconciling bank statements in a timely
manner.

        The school district did not formally respond to our findings and recommendations, and we have
forwarded this matter to NSF’s Division of Contracts, Policy and Oversight for resolution of the audit
findings.


Midwestern Board of Education
had Cost Sharing of $10.1 Million at Risk and Questioned Costs

        We performed an audit of a USI award to a midwestern public school district’s board of education
(the board). NSF provided the board $7.5 million under a cooperative agreement that included negotiated
cost sharing of $10.1 million. We identified all of the $10.1 million in claimed cost sharing as “at risk”
because the board did not adequately account for or document the costs. Specifically, we were unable to
identify cost sharing specific to the USI award, and therefore were not assured that cost-sharing
expenditures would not be claimed for more than one federal award.

        Because of the serious nature of these deficiencies, we recommended that NSF management
require the board to immediately implement procedures addressing the cost sharing on the USI award.
In July 2000, NSF management notified the board that it would not make the fifth year’s award increment
of $3.2 million available to the board until it has shown NSF that it has an adequate system for tracking
and accounting for its cost sharing.

        We also questioned $969,738 of direct costs claimed by the board related primarily to salaries
and fringe benefits. We were unable to verify salary costs because the board charged these costs based
on budgeted rather than actual employee effort and did not support salary costs with after-the-fact time
and attendance records or certifications. Also, the board did not have documentation to support how
fringe benefits were allocated to the award. We recommended that the board implement procedures to
ensure time and attendance records are maintained and used as the basis for claiming salary costs under
the award, and modify its accounting records and financial report to NSF to reflect an adjustment for the
questioned fringe benefits.

        The board responded that it does not agree that personnel salaries are unsupported, but rather
believes that its current procedures for certifying biweekly payroll are sufficient. The board is in the
process of reviewing a cost-allocation system to provide a hard audit trail for cost sharing that can track
and allocate costs to specific activities. NSF management is currently resolving the issues raised in the
audit.
NSF                             Semiannual Report Number 23 · September 2000                               OIG
                                                    7
        NSF OIG
      Award Winners

                                                    Audit-Related Reporting Terms
                                                             Much of the terminology that we use in
                                                     describing issues that we discover in our audits
                                                     and reviews is complex. The following are some
                                                     of the more common terms and definitions that
                                                     we use.
Awards presented by the Executive Council on In-
tegrity and Efficiency in September. Shown from
                                                             Questioned Cost. Auditors question costs
left to right, Helen Norris recipient of the ECIE    because of an alleged violation of a provision of a
Award for Excellence, Management and Admin-          law, regulation, grant, cooperative agreement, or
istration; Dr. Christine Boesz, NSF Inspector
General; and Ulysses Goodwin, Jr. recipient of       contract. In addition, a questioned cost may be a
the ECIE Award for Excellence, Audit.                finding in which, at the time of the audit, a cost is
                                                     not supported by adequate documentation; or a
                                                     finding that the expenditure of funds for the intended
                                                     purpose is unnecessary or unreasonable. It is
                                                     important to note that NSF is responsible for making
                                                     a management decision regarding questioned costs
                                                     that includes an evaluation of the findings and
                                                     recommendation included in an audit report. It is
                                                     the management decision that may transform a
                                                     questioned cost(s) into a disallowed cost(s).

Awards presented by the NSF Director in June.
                                                             Funds Put to Better Use. Use Many times
Shown from left to right, Maya Goodwin hon-          audit recommendations identify ways to improve
ored for Support Staff Excellence, Sandy Van         the efficiency of programs that can lead to tangible
Booven recipient of the Superior Accomplish-
ment Award, and Bruce Carpel recipient of the        cost savings over the life of an award. These are
Meritorious Service Award.                           not questioned costs, but rather methods of making
                                                     the most efficient use of federal dollars, such as
                                                     reducing outlays, deobligating funds, or avoiding
                                                     unnecessary expenditures.

                                                             Compliance or Internal Control Issues.
                                                                                                  ssues
                                                     Audits often result in recommendations to improve
                                                     the auditee’s compliance with NSF and federal
                                                     regulations; or to strengthen the auditee’s internal
                                                     control structure to safeguard federal funds from
                                                     fraud, waste, abuse and mismanagement.
Awards presented by the NSF Director in June.
Shown from left to right, Dawn Parker and
Kristen Stagliano recipients of the Award for
Excellence in Program Management, and
Belinda Robinson recipient of the Award for
Excellence in Administration.                                      Photos by Roy Jones and Belinda Robinson

 NSF                              Semiannual Report Number 23 · September 2000                                OIG
                                                       8
Northeastern School District Must Adjust Future Claimed Costs

          In our March 2000 Semiannual Report (pages 5 and 6), we reported the results of an audit of a
Pennsylvania school district that received a USI award to improve the scientific and mathematical literacy
of students. We reported that $403,410 of $9.9 million in claimed costs were questioned, because they were
either unallowable or unsupported. We also identified material internal control weaknesses in the school
district’s accounting and reporting of cost sharing. In addition, the school district lacked the financial management
capability to compare budgeted costs with actual costs to ensure its cash balances were not in excess of its
cash needs and failed to maintain an adequate system of record retention and retrieval for NSF awards.

         NSF sustained $133,083 of the questioned subcontract and indirect costs. In addition, the school
district agreed to undertake immediate steps to improve its accounting for cost sharing and address the
other compliance and internal control deficiencies identified in our audit.



Institutions of Higher Learning
Cost Sharing Overstated at a Western University Foundation


        A western university foundation administered three NSF awards related to the Federal Technology
Reinvestment Project, a federal initiative to assist in the development of dual-use technologies that meet
both defense and civilian needs, and to provide technological assistance to small firms, including defense
companies converting from military to commercial manufacturing. NSF provided the foundation a total
of $6.2 million through the three awards and required $6 million in cost sharing.

        The foundation claimed a total of $38 million in cost sharing—more than six times the required
amount. We found, however, that the foundation could support only $8 million of the $38 million (or 21
percent) claimed as cost sharing. The primary reason the foundation could not support the $30 million
of the claimed cost sharing was because the awardee valued donated software using commercial prices
rather than using discounted educational prices. Federal guidelines require that institutions value cost
sharing in accordance with the federal cost principles, which require that institutions receiving education
discounts use these discounts to reduce the amounts charged to awards. In addition, the foundation was
unable to provide documentation for in-kind contributions and expenditures, and claimed unallowable
cost sharing.

       As a result of our review, we determined that the foundation provided acceptable cost sharing to
meet the requirement on two of the awards, but did not provide sufficient cost sharing for the third
award. We therefore recommended that NSF management require the foundation to reimburse the
$271,440 cost-sharing shortfall on the third award and improve its overall control processes for valuing,
supporting, and meeting its cost-sharing obligations.

        Our audit also found that the foundation had not developed ten multimedia-based training modules,
a project for which it had received $200,000 through one of the awards. Although foundation officials
stated that modules had been incorporated into university courses and were available on the Internet, we



NSF                              Semiannual Report Number 23 · September 2000                                    OIG
                                                     9
were unable to access them. We recommended that NSF management require the foundation to demonstrate
that it had developed the modules and make them available to the intended industrial and academic communities,
or return the $200,000 awarded for the modules’ development.

        The foundation replied that it disagreed with our interpretation of the federal cost principles
regarding the use of educational discounts in valuing donated software. It also believes that it can
provide the necessary supporting documentation for the cost-sharing shortfall on the third award.
However, the foundation agreed to improve staff training to ensure future compliance with applicable
regulations related to cost sharing. In addition, the foundation did not concur with our audit finding
regarding the training modules, and stated that it had received only part of the requested funds from
NSF, and that in fact, the modules had been developed. These issues will be addressed by NSF management
during audit resolution.


University is at Risk of not Complying With NSF’s Cost-Sharing Requirements

        We audited a $9.3 million cooperative agreement issued to a university in Puerto Rico that
serves over 5,700 commuter students. The university is one of six institutions that NSF funded under its
Model Institutions of Excellence program, which is a 10-year comprehensive institutional development
program to assist higher education institutions in substantially increasing the number of quality, minority
baccalaureate degree graduates in the fields of science, engineering, and mathematics. While the university
generally was able to support the $8.2 million in claimed costs for the first 4 years of the award, we
determined that the university was at risk of not meeting $248,524, or 19 percent, of its $1.3 million
required cost sharing. This occurred for two reasons. First, the university mistakenly believed that it
was only required to cost share $232,000 instead of $464,000 in the award’s third year. Second, the
university claimed $112,516 of unallowable cost sharing, which included the construction of faculty
offices and lounges, recruitment-related promotions, passenger van lease and related fuel expenses, and
meal charges.

        We also found other weaknesses in the university’s controls for ensuring compliance with NSF
and federal regulations. The university claimed over $600,000 of award expenditures in cost categories
that did not accurately reflect the type or purpose of the expenditure, thereby making it difficult to
compare budgeted with actual expenditures and ensure funds were spent for their intended purpose. In
addition, the university failed to maintain documentation to support the differences between expenditures
reported to NSF and expenditures recorded in the university’s accounting records. We also noted that
the university’s conflict of interests policy did not fully comply with NSF’s conflict of interest policies,
and that written procurement policies and subcontract agreements were not in compliance with Federal
provisions.

        The university agreed with most of our findings and recommendations, except for selected issues
related to cost sharing. We have forwarded this matter to NSF’s Division of Contracts, Policy, and
Oversight for resolution.




NSF                             Semiannual Report Number 23 · September 2000                              OIG
                                                   10
Southwest State Engineering Agency
has Questioned Costs and can Improve on its Accounting Controls

        We conducted an audit of four NSF awards issued to a southwestern state engineering agency. The
purpose of the awards was to assist the agency in increasing the number of minorities receiving Bachelor of
Science degrees in mathematics, engineering, science and technology, to improve engineering education, and
to develop a curriculum in biomedical optics. We questioned $86,854 of $20.8 million in costs claimed by the
agency. The questioned costs were primarily related to the agency’s failure to meet its cost-sharing obligation
                                                                                               Continued on page 12



                             Cost Sharing - A Continuing Risk
               In accordance with Congressional requirements, NSF management requires that each grantee share
      in the cost of NSF research projects resulting from unsolicited proposals. In addition to this statutory
      requirement, NSF management can require cost sharing when it believes there is tangible benefit to the
      award recipient, such as infrastructure development or the potential for income or profit. Cost sharing,
      sometimes called matching or institutional support, is defined in federal regulations as “all contributions,
      including cash and third party in-kind,” which meet seven criteria: verifiable, not included as contributions
      for any other federally-assisted project or program, necessary and reasonable for accomplishment of
      objectives, allowable, not paid by the federal government under another award (except where authorized by
      statute), provided for in the approved budget when required by the federal awarding agency, and in
      conformance with other federal regulations.

               When cost sharing is provided in the approved award budget it becomes a condition of the award,
      and we audit these costs just as we do NSF-funded costs. If the award period has ended and we find that
      the awardee has not met its cost sharing requirement, we will indicate a questioned cost-sharing shortfall.
      We question costs when awardees do not meet their cost-sharing requirements, because the award was
      made on the premise that the cost sharing was necessary to meet the award objectives. If promised cost
      sharing is not realized, then either the awardee has not met its programmatic objectives, or the project
      actually costs less than it was originally estimated. In either case, NSF should have at least a portion of its
      funds returned to it.

                Sometimes we audit awards where the award period has not yet ended. In these situations if an
      awardee has not met its cost-sharing obligation, but still has time within which to do so, we will identify the
      amount of cost sharing we believe to be “at risk.” At the end of an award period, the cost sharing that
      remains at risk will become a questioned cost-sharing shortfall. The purpose of identifying cost sharing at-
      risk is to alert NSF management to a situation where an awardee may not be meeting its program objectives.
      This gives NSF an opportunity to monitor the situation and take appropriate action.

               We have been finding significant problems with awardees’ ability to meet their cost-sharing
      requirements. In this reporting period, we found several awardees that have significant problems in this
      regard. One awardee is at risk of not meeting its entire $10.1 million requirement. Another awardee
      overstated its cost sharing received by $30 million. These and other cost-sharing findings are discussed in
      more detail in our summaries of individual audits. Because of the programmatic impact when cost sharing
      is not met and the problems we have identified, we are continuing to focus our efforts in this area and are
      currently conducting a broad review of cost sharing at numerous institutions. We hope that our efforts will
      provide NSF management with the information and tools necessary to better administer this important
      facet of its awards.



NSF                             Semiannual Report Number 23 · September 2000                                     OIG
                                                   11
Southwest State...
Continued from page 11
on one award, provide adequate supporting documentation for participant support, subcontract, and consultant
costs, and correctly charge the awards for indirect costs. In addition, we made recommendations to improve
the agency’s accounting controls over monitoring and tracking participant support and subcontract costs and
compliance with filing final project reports to NSF in a timely manner.

        The agency agreed to improve its systems for monitoring subcontractors’ costs and filing final
project reports. However, the agency disagreed with the questioned costs and our recommendation for
improved controls over monitoring participant support costs. We have referred these issues to NSF’s
Division of Contracts, Policy, and Oversight for resolution.




Non-Profit Organizations
Southwestern Non-Profit Education Center
Needs to Improve Grants Management Controls
       We audited an NSF award issued to a southwestern non-profit education center that employs
advanced technology to serve Native Americans in the areas of education, economic development,
language and cultural preservation, tribal policy issues, and self-determination. The purpose of the
award was to provide infrastructure technology and related training to Native Americans.

        We found material deficiencies in the center’s internal control structure for ensuring compliance
with NSF and federal regulations. The center did not have a verifiable system for allocating costs for
space and salaries to the appropriate cost objectives, or the overhead cost pool making it difficult to
determine their reasonableness. Also, three of the Federal Cash Transaction Reports filed by the center
differed significantly from their general ledgers. Such internal control problems are serious because they
place all federal funds at risk of not being accounted for properly and increase the likelihood that funds
will be spent for unnecessary or unallowable activities.

       We also questioned $82,802 of the $1,295,054 in claimed costs because the center:

        (1) lacked documentation to support claimed costs;

        (2) used participant support funds for other expenses without NSF’s authorization; and

        (3) failed to deposit award funds in an interest-bearing account, as required by federal regulations,
            resulting in lost income to the government.

       The center did not respond to most of our concerns related to improvements needed to its
systems and disagreed with the majority of the questioned costs. NSF’s Division of Contracts, Policy,
and Oversight will resolve the findings.




NSF                            Semiannual Report Number 23 · September 2000                              OIG
                                                  12
Western Educational Research
and Development Agency has Questioned Costs

        We audited three NSF awards issued to a western educational research and development agency
to support studies and programs designed to help teachers effectively provide science education to
students. Out of $4.2 million in claimed costs, we questioned $445,742 charged to one award. This
included $301,259 for participant support, materials and supplies, and other costs that we considered
unreasonable, not allocable to the award, or not necessary to meet the award’s objectives. It also
included $144,483 of indirect costs that were improperly charged because the awardee used different
indirect cost rates for each of the fiscal years involved and included participant support costs in the
indirect rate base.

        As a result of the excessive dollar amount of unallowable and unallocable costs, we recommended
that the agency implement procedures to screen costs for reasonableness, allowability, and allocability.
To ensure adherence to NSF policies, we also recommended that the agency require its principal
investigators file annual financial disclosure statements, notify NSF of changes in project scope, and
obtain competitive price quotations for purchases over $25,000.

        The agency disagreed with most of the findings. NSF’s Division of Contracts, Policy, and Oversight
will resolve all questioned costs and contested findings.


Northwestern Foundation has
Questioned Costs and can Strengthen its Policies and Procedures

        We conducted an audit of incurred costs and cost sharing associated with three awards made to
a northwestern non-profit educational foundation established to promote science education. We are
questioning $141,708 of $2,661,096 in claimed costs primarily because the foundation spent funds
budgeted for participant support on other activities without the specific prior approval of the NSF
program official, as required by NSF regulations. We also questioned costs because the foundation
could not provide supporting documentation for claimed costs related to participant support, salaries
and related fringe benefits, travel, materials and supplies, subcontracts, and other direct costs. In addition
to the questioned costs, we noted a $40,970 shortfall in cost sharing for one of the awards because the
foundation did not fully meet its required cost sharing by the end of the 5-year award.

         We recommended that the foundation improve its controls for administering its grants, including
maintaining documentation to support its claimed costs, establishing procedures to reconcile accounting
records to financial reports submitted to NSF, and ensuring appropriate approvals of employee time and
effort reports, and travel requests. The foundation agreed with most of our findings. NSF management
is resolving the contested findings.




NSF                            Semiannual Report Number 23 · September 2000                               OIG
                                                  13
Midwestern Education Center has Clean Audit Results

        We conducted an audit of three NSF awards issued to a midwestern non-profit education center
that encourages the investigation and dissemination of knowledge in the sciences, arts, and humanities.
These awards included support for providing leadership development and hands-on research activities
for K-12 teachers in a midwestern state. Of the $7.1 million claimed costs by the education center for
the three awards, we did not identify any questioned costs. In addition, the results of our testing disclosed
no issues related to noncompliance with NSF and federal regulations, and no weaknesses in the center’s
internal control structure.



For-Profit Entity
Northeastern Company Counts NSF Funds as Cost Sharing

        We conducted an audit of a northeastern commercial company that received two NSF awards
totaling $7.1 million to create a new mathematics curriculum for elementary schools and to develop
materials related to mathematics teaching methods.

        We questioned $71,595 of $5.2 million in costs claimed by the company. The majority of the
questioned costs were either not allowable, allocable, or reasonable under federal regulations or
represented expenditures that were based on estimated amounts rather than on actual costs. Additionally,
of the $541,663 claimed by the company for its cost-sharing efforts, we questioned $49,500 because the
funds were actually NSF funds. No NSF funds can be used to meet an awardee’s cost-sharing obligation.

       To strengthen the internal control structure, we recommended that the company implement
procedures to ensure that funds received and disbursed are properly recorded in the accounting records
and reported to NSF in financial reports. We also recommended that the company implement procedures
to ensure that cash contributions, designated as cost sharing for the award, actually be used for project
costs.

       The company is contesting most of the findings. We forwarded our audit report to NSF’s Division
of Contracts, Policy, and Oversight for resolution.




NSF                            Semiannual Report Number 23 · September 2000                              OIG
                                                  14
                                              POLAR PROGRAM REVIEWS
                              NSF plays a leadership role among federal agencies involved in supporting
                      research and logistics in the Arctic, and is the lead agency for managing the entire
                     U.S. national program in the Antarctic through its Office of Polar Programs (OPP).
                   Charged with managing all U.S. activities in the Antarctic as a single program, OPP not
                  only funds research, but also is responsible for operating the infrastructure and logistics
                  necessary to conduct scientific experiments in the harsh polar environment. In this role,
                 it faces a number of unique challenges such as transporting and housing scientists and
               support staff, assuring their safety and health, protecting the polar environment, ensuring
           U.S. compliance with the international Antarctic Treaty, and promoting the national interest
in maintaining an active and influential presence in Antarctica. OPP also faces some of the same challenges
in the Arctic, and received $245 million in FY 1999 for research and logistical support for the two areas.

        While OPP operates like other NSF directorates in making awards for polar research, its
responsibilities do not end there. In providing science, operations, and logistics support to the research
it funds, it is significantly different from other NSF units. OPP staff must not only know the science, but
must also be able to manage contractors engaged in delivering a broad range of services to the scientific
community located in a difficult and dangerous environment. Our audit work has focused extensively
on reviewing these activities because of their many inherent risks. From our perspective, NSF’s polar
programs involve not only a large expenditure of money, but also the safety of scientists and workers,
environmental concerns, and the prestige of the U.S. government. Accordingly, accomplishment of the
United States Antarctic Program (USAP) requires significant management and administrative skills to
ensure successful operation.

        Since 1997, we have conducted reviews related to commercial contractors and the Air National
Guard, of functions previously performed by the U.S. Navy for the USAP. OPP asked OIGto review
estimates of cost savings that would accrue from this transition. These reviews validated savings of
more than $6.6 million per year that would result from the transition. OPP also accepted our
recommendations that would allow NSF to reap additional savings exceeding $4.6 million per year.
Follow-up reviews, completed during the current and previous semiannual periods, identified $750,000
in duplicate or erroneous charges that OPP is currently working to recover from the Air National Guard
for LC-130 air carrier services. Some of these costs are described more fully in the following article,
“Review of Funds for USAP Personnel.”

        In addition, in both the Antarctic and the Arctic, NSF has recently awarded new contracts for
research support and logistics that require the agency’s careful attention. The USAP contract is NSF’s
largest and was recently awarded to a new organization. The Arctic contract is the first awarded under
OPP’s recently established Arctic Research Support and Logistics component. For FY 2001, OPP has
requested $209.30 million for research support and logistical support activities ($184.38 for Antarctic
and $24.92 for Arctic). We plan to monitor the continuing transition of support activities to the new
contractors.

        Also, as part of our annual audit effort, we are developing a plan to assess the challenging
aspects of providing research and research support in Antarctica and the Arctic.


NSF                         Semiannual Report Number 23 · September 2000                                 OIG
                                                15
Aviation Technical Services

       The final phase of the U.S. Navy transition involved the transfer of air traffic control, meteorology
and ground electronics maintenance to the Aviation Technical Services branch of the Space and Naval
Warfare Systems Center (SPAWAR), Charleston, S.C. During the current reporting period, we completed
a survey of this transfer.

        According to SPAWAR’s calculations, compiled with the U.S. Navy’s assistance and cooperation,
the transition was expected to result in approximately $700,000 to $800,000 in savings annually to NSF.
In comparing SPAWAR’s actual first-year costs with its current costs, we found they had increased by
just under $1 million during the 3-year period. The increase was due mainly to the addition of personnel
and services. Therefore, while the anticipated savings from the transition were not realized, we reviewed
the additional costs and advised OPP that they were reasonable.

        We noted, however, that SPAWAR appeared to have overestimated the number of weeks that
part-time personnel would be required to perform under contract. By comparing the number of weeks
budgeted with the number of weeks necessary for operations, medical clearance, orientation, and training,
we found that SPAWAR may have over budgeted by 8.5 weeks per person. We therefore suggested that
OPP could reduce costs by approximately $233,240 per year if the number of weeks were reduced.
OPP and SPAWAR are jointly reviewing our suggestion.


Review of Funds for USAP Personnel

        The 109th Airlift Wing of the New York Air National Guard provides LC-130 flight support to
the USAP. In addition to its existing personnel, the 109th was authorized to hire 220 full-time officer and
enlisted personnel to support the USAP. Commonly referred to as “USAP Hires,” the salaries for
personnel hired in these positions are reimbursed by OPP. OPP is not expected to make payments for
vacant positions.

        Based on a review of time reporting and personnel records for a two and one-half year period,
our review revealed that OPP had been charged approximately $110,000 in erroneous and inappropriate
personnel costs. Specifically, the Air National Guard improperly charged for personnel who did not
perform work for the USAP, for amounts higher than agreed to by OPP, and for days not actually
worked. These overcharges were caused by inadequate review of the monthly charges by the Air
National Guard and its headquarters, the Air National Guard Readiness Center, Financial Management,
before they were submitted to OPP for reimbursement.

       We recommended that OPP obtain a credit for these overcharges. We also made several
recommendations to improve the procedures for preparing and obtaining a secondary review of invoices
to OPP. In its response to a draft copy of our report, OPP indicated that it agreed with recommendations
to recover $91,600 from the Air National Guard, but needed to have further discussions with the Air
National Guard regarding the remaining charges in question.




NSF                            Semiannual Report Number 23 · September 2000                             OIG
                                                  16
South Pole Projects

        As reported in previous semiannual reports, we attend quarterly reviews of OPP’s South Pole
Safety and Environmental and Station Modernization projects. The most recent quarterly review reported
that construction crews are working on the final phase of the South Pole Safety and Environmental
project to complete the interior of the new power plant. OPP expects to accept this work in January
2001, which would see this $25 million, 5-year effort successfully completed on time and within budget.

        OPP is also reporting that the South Pole Station Modernization project is on time and within
budget. On-site work on this project begins in earnest this operating season (November 2000 to February
2001) with the erection of steel for the elevated station. A critical factor affecting the project schedule
and budget will be the limited availability of LC-130 flight hours, which have been curtailed by a military-
wide shortage of pilots. OPP is addressing this issue in several ways. Beginning in FY 2001, OPP plans
to shift some work from the LC-130s to other airframes. Also, OPP and Raytheon Polar Services
Corporation, the support contractor for the project, continue to refine requirements and develop
contingency plans in the event that airlift demand outweighs supply. Finally, as a by-product of a panel
of USAP participants and polar operations experts convened by OPP to identify feasible, efficient, and
cost-effective ways to increase future LC-130 flight hours for science, OPP will begin to conduct studies
to determine the feasibility of the identified alternative proposals this season.


ISSUES INVOLVING RESEARCH PROJECT SUPPORT
Earthquake Engineering Research Centers Need Improved Record Keeping

        In the wake of the Loma Prieta and Northridge earthquakes, NSF established, in 1997, three
Earthquake Engineering Research Centers to conduct and coordinate earthquake engineering research.
NSF administers the program under 5-year cooperative agreements with three universities, which
collaborate on research and education with other universities, businesses, and the government. The
total commitment for this program from both NSF and the three universities, which will share the costs,
is expected to be at least $60 million.

       During this reporting period, we reviewed the financial and administrative systems at two
earthquake centers to identify areas that can be strengthened during this early stage of operations. At
both centers we identified issues with the annual reporting to NSF required under the cooperative
agreements.

        The annual reports omitted some data and contained errors. In addition, we found that the
annual reports did not reflect unspent obligations, although the amount of unspent obligated and unobligated
funds being carried forward has reached up to 90 percent of annual funding. NSF uses annual reports to
review centers’ progress in meeting its research objectives and to help decide the level of future funding
support. Therefore, inaccurate and incomplete reports impede NSF’s ability to decide the appropriate
support for them. We recommended that the centers work with their respective university administrators
to improve the reliability and completeness of the data reported and disclose or otherwise indicate in
their annual reports the amount of unspent obligations exceeding 25 percent of the award amount. Both
centers concurred with our recommendations. NSF has modified one of the awards to address the
unspent obligations and is continuing to identify ways to improve reporting by the centers.

NSF                            Semiannual Report Number 23 · September 2000                             OIG
                                                  17
        Additionally, at one of the centers, we questioned $65,351 paid to consultants because the hourly
consultant fees exceeded the maximum Federal reimbursement allowed. The center is contesting this
finding, and the issue will be resolved by NSF’s Division of Contracts, Policy, and Oversight.


Southern University Needs to Improve Award Monitoring
        In 1978, the Congress authorized NSF to establish the Experimental Program to Stimulate
Competitive Research (EPSCoR) for states traditionally receiving a low percentage of federal research
funding. EPSCoR’s goal is to develop and utilize a state’s academic science and technology resources
in a way that will support wealth creation and a more productive and fulfilling way of life for a state’s
citizenry. EPSCoR makes large awards to support research infrastructure at states’ research-oriented
university campuses and encourages long-term partnerships among state leaders in government, business,
and higher education.

        During this reporting period, we audited an EPSCoR award to a southern university for research
in three areas: smart materials, biomaterials, and reclamation of solid waste. Of $4,367,275 in claimed
costs, we questioned only $34,015, less than one percent, for unallowable travel and sub-awardee costs.
In addition, we questioned whether the purchase of a computer was necessary to meet the purposes of
the award. We also found that the university needs to improve its monitoring over cost sharing, costs
claimed by sub-awardees, and costs used to support individuals who participated in program activities.

        In general, the university agreed with the questioned costs and, as a result of the audit, has taken
steps to improve sub-awardee monitoring. However, the university disagreed with our findings on
monitoring participant support costs and the use of the computer purchased with award funds. We have
forwarded these matters to NSF’s Division of Contracts, Policy, and Oversight for resolution.


Western and North Central Research
Centers Administer Awards According to Requirements
       We are pleased to report that two research centers audited during this period were largely in
compliance with federal and NSF regulations and generally had good systems of internal controls for
accounting for its grant funds.

        We audited a $2.6 million award to a western non-profit research organization supporting research
in the behavioral sciences and did not question any of the center’s costs. We also largely accepted its
calculation of administrative costs for the 3 years ended August 31, 1999, although we recommended a
few adjustments to ensure compliance with federal cost principles.

        We audited four awards NSF made to a midwestern non-profit research center collecting data
and conducting survey research for government agencies and other private and non-profit organizations.
We found that in general the center complied with award terms and had a good system of internal
controls to account for the use of NSF funds. Of $16.2 million in claimed costs, we found only $4,997
that could not be supported by accounting records. We also noted a minor noncompliance with NSF
procedures for which we recommended that NSF management remind program managers that written,
not just verbal, approval is required for certain changes to approved award budgets.

NSF                            Semiannual Report Number 23 · September 2000                             OIG
                                                  18
RESOLUTION of PRIOR AUDITS
        During this reporting period, seven reports with significant audit recommendations have been resolved.
These resolutions, by reducing future or recovering past cash outflows, resulted in providing NSF with
approximately $800,000 for use in funding other award opportunities. In addition to the financial savings, the
audit resolution process also resulted in some award recipients’ agreements to improve their processes for
managing their awards and increase the efficiency with which they utilize NSF funds.



NSF Used Review of Western
Mathematical Sciences Institute to Adjust Final Award

         In our September 1999 Semiannual Report (pages 7-8), we reported on our reviews of the proposed
budgets for two mathematical sciences institutes submitted under NSF’s Mathematical Science Research
Program. One of the reviews concerned a western-based mathematical sciences institute proposing a budget
of $17.5 million for 5 years. As a result of our review, NSF management reduced the amount of the final
award by $100,000 because of unreasonable hospitality costs and included language in the new award agreement
to specify these types of costs as unallowable. Further, in accordance with our recommendations, the institute
negotiated a lease agreement with the university, which waives the institute’s final payment of $300,000 to the
university. NSF management also included special conditions in the new award agreement, including a condition
that no NSF funds would be used to cover exterior maintenance expenses of the leased building, as they are
properly the responsibility of the university.

        Our review also indicated that some of the indirect costs allocated to NSF under the proposed
budget were attributable to non-NSF activities. In accordance with our recommendations, NSF
management took steps to require the institute to develop an indirect-cost rate. The institute has agreed
to submit an annual indirect-cost proposal for NSF’s review and acceptance beginning December 1,
2000. Finally, the institute is in the process of implementing two other recommendations to develop a
long-term plan to reduce its dependency on NSF funding, and written accounting policies and procedures.


Northwestern For-Profit Company Must Repay NSF and Adjust Claimed Costs

        In our September 1999 Semiannual Report (page 10), we identified questioned costs of $198,666
based on our review of a northwestern for-profit education company, which had received two awards
totaling $2.6 million to develop educational videodiscs on molecular and cell biology, and genetics, and
to design science-education software for the fifth through the eighth grades. After reviewing the additional
documentation provided by the company, NSF agreed that $169,777 of costs were unallowable and not
adequately supported. The company will repay $51,964 to NSF and will adjust or offset its unbilled
NSF award costs by $117,813. NSF and the company satisfactorily resolved other compliance and
internal control issues, particularly those related to its deficient cash management practices.




NSF                             Semiannual Report Number 23 · September 2000                               OIG
                                                   19
                 Review of Awardee A-133 Reports

                                          Non-federal
                            entities that expend $300,000 or more
                       in a year in federal awards are required, under
                   the Single Audit Act of 1984, as amended, to have a
                single or program-specific audit conducted for that year.
              OMB Circular A-133 constitutes the guidance prescribed under
            the Act and sets forth standards for obtaining consistency and
          uniformity among federal agencies for the audit of states, local
        governments, and non-profit organizations expending federal awards.
      Reports prepared by independent auditors in accordance with this Circular
     are referred to as A-133 audits. The purpose of these audits is to provide federal
    agencies with a source of how well government funds are being managed and
   spent. NSF relies on the A-133 reports that it receives when making awards and for
  ensuring accountability of its funds.

           Under Circular A-133, auditees are required to submit a data collection form
  along with their A-133 audit to the Federal Audit Clearinghouse. The Clearinghouse, in
 turn, sends the A-133 reports to the federal agency with oversight responsibility for the
 auditee. The Clearinghouse also sends the reports to all federal agencies, as indicated by
the auditee on its data collection form, for which the audit has disclosed findings relating to
awards that the federal awarding agency provided. This process of having audit reports go
through the Clearinghouse is newly required for FY 1997 and subsequent audits.
 Consequently, there are some problems with the system. As reported by the Clearinghouse
  and seen in the audit reports received by NSF, these problems include misidentification
  by the auditees of their correct cognizant or oversight agency and misidentification by
   the auditees of federal agencies with findings. Our office continues to work with other
    Offices of Inspector General to address these problems.

            Our office receives and reviews the A-133 reports submitted to us by the
      Clearinghouse and those that are continuing to be submitted directly from the
       auditees. During this reporting period, we reviewed 93 A-133 audit reports
        with NSF expenditures of $564 million dollars for fiscal years 1997, 1998
         and 1999. Eighty-six reports were sent to CPO for audit resolution this
           period with $138,429 in questioned costs for eight institutions. The
             questioned costs were related to travel, equipment, salaries, and
                cost sharing. Internal control findings included weaknesses
                  related to reporting,subrecipient monitoring, and cost
                      sharing. The most common finding, cited at 21
                         different institutions, was related to
                              awardees not maintaining a
                                     current inventory.



NSF                           Semiannual Report Number 23 · September 2000                        OIG
                                                 20
Northeastern Education Center to Reduce Future Claimed Costs by $30,048

         In our March 2000 Semiannual Report (page 6), we reported on the results of an audit of five
awards to a northeastern non-profit company to develop visual technology for students. Of the $8.4 million
claimed costs, we questioned $277,565 primarily because the center did not meet its cost-sharing requirement.
During audit resolution, NSF forgave the cost-sharing shortfall because of a significant modification in the
project that obviated the need for the original cost-sharing amount. However, the company did agree to
reduce its request for future reimbursement by $30,048 in order to compensate for questioned costs attributable
to fringe benefits and food, and to refund $6,861 in interest income to the government.


Southeastern Institute Owes $42,780 of Excess Administrative Costs

        During this reporting period, NSF resolved an A-133 audit of a southeastern statistical institute
with $42,780 in questioned costs, all of which NSF sustained. In following up on other recommendations
that arose from our prior audit of this institute, as reported in the September 1999 Semiannual Report
(page 8), NSF directed the institute to take corrective action regarding five internal control and compliance
problems. The institute had previously agreed to take such corrective action, and NSF’s continual
oversight helps ensure full implementation of the corrective action.


Summary of Other Audit Resolutions

        In addition to the resolutions described above, NSF management resolved, during this reporting
period, three separate audits of organizations that received NSF funding. For one of the audits, NSF
sustained questioned costs totaling $27,589. For the second audit, which had questioned costs of
$4,929, the awardee was able to provide support for $1,817 of the amount questioned but agreed to
adjust future billing for the remaining $3,112. In resolving the third audit, NSF sustained $133,083 in
questioned costs.2




2 This resolution is described in more detail on page 9, “A Northeastern
 School District Must Adjust Future Claimed Costs.”


NSF                               Semiannual Report Number 23 · September 2000                             OIG
                                                     21
              Office of Investigations
         The Office of Investigations is responsible for investigating and assessing allegations of wrong-
doing and coordinating OIG’s outreach efforts. We investigate allegations of wrongdoing involving
organizations or individuals that receive funds from, conduct business with, or work for NSF. After
investigating these allegations, we assess their seriousness and recommend appropriate action. When
necessary, we work in partnership with agencies and awardee staff to resolve these issues. When appro-
priate, the results of these investigations are referred to the Department of Justice or other prosecutorial
authorities for criminal prosecution or civil litigation, or to NSF management for administrative resolu-
tion.

         Our administrative investigations include addressing allegations of research misconduct i.e., fal-
sification, fabrication, and plagiarism. Such misconduct strikes at the core of NSF’s mission and is a
special concern for our office. Our criminal and civil investigations focus on allegations of improper
diversion of NSF funds and material false statements submitted to the Foundation. We encourage
anyone to notify our office of any significant problems relating to the misuse of NSF funds, because it
significantly aids our investigative efforts and the possible recovery of federal funds. We can be con-
tacted anonymously via our 1-800-428-2189 hotline number or emailed at oig@nsf.gov.

        Our outreach efforts are essential to building partnerships with the Foundation, other federal
agencies, NSF awardees, and research communities. These partnerships assist us in promoting educa-
tion on ethical issues and in resolving investigation and audit matters more effectively.



                                         Highlights
       ECIE/PCIE Misconduct in Research Working Group                                          24

       Actions by NSF in Connection With two Cases                                             26

       The Importance of Accurate Information in Proposals                                     28

       Issues Involving Civil and Criminal Allegations                                         29

       Characteristics of Cases Closed This Period                                             32

       Outreach Efforts                                                                        33




                                                     13
ECIE/PCIE MISCONDUCT
in RESEARCH WORKING GROUP
         In our September 1999 Semiannual Report (page 16), we discussed the publication of the Office
of Science and Technology Policy’s (OSTP) Proposed Federal Policy on Research Misconduct in the Federal
Register. We, along with NSF management, actively assisted in the development of OSTP’s policy and
procedures, and currently participate in the OSTP Implementation Group and a networking group of research
misconduct officials from federal agencies. Both groups meet periodically to discuss implementation strategies.
In anticipation of OSTP’s final policy publication, the Executive Council on Integrity and Efficiency (ECIE) and
the President’s Council on Integrity and Efficiency (PCIE) of federal Inspectors General formed a working
group to consider their role in conducting or providing oversight of research misconduct investigations. ECIE
and PCIE formed the Misconduct in Research Working Group (MIR Working Group). The MIR Working
Group is chaired by NSF’s Inspector General and among its membership are representatives of Inspectors
General from 22 federal agencies that fund research in all fields of science and engineering including research in
economics, education, humanities, linguistics, medicine, and psychology. This group is charged with educating
the IG community on research misconduct issues and developing a white paper describing investigative models
including the scope and standards for such investigations.

        During this reporting period, the MIR Working Group met three times. Members discussed and
compared selected agency and IG approaches to resolving allegations of research misconduct, heard
from the Office of Government Ethics on preventative models, and began drafting quality standards for
misconduct investigations. Two group members are also members of OSTP’s Implementation Group
and briefed that Group on the function of the MIR Working Group. We have facilitated agency and IG
contacts through the exchange of membership lists. The interactions between the MIR and Implementation
Groups will assist in the development of policies that will serve the needs of both communities to ensure
that investigations are conducted rigorously, fairly, and with consideration of all relevant policies.



MISCONDUCT INVESTIGATIONS
FORWARDED to the DEPUTY DIRECTOR
Intellectual Theft in Five Federal Proposals

         We received an allegation that an engineer employed by a small business in California plagiarized
material from a published paper into his NSF Small Business Innovation Research (SBIR) proposal.
The engineer’s proposal used the central research idea, some text, and a figure from this paper, but did
not attribute or distinguish the copied material from material original to his proposal.

        The engineer characterized his omissions as a careless mistake. We obtained four additional
proposals in which the engineer again failed to attribute the same idea, text, and figure. In all, the subject
submitted five proposals to four federal agencies, including a second proposal to NSF, which made
unattributed use of the material. In more than one instance, the subject designated these concepts in his
proposal as proprietary to his company.

NSF                             Semiannual Report Number 23 · September 2000                                  OIG
                                                   24
         The president of the small business and an NSF program officer told us that the engineer’s lack of
attribution was a significant and serious problem. We concluded, based on a preponderance of the evidence,
that the subject knowingly committed intellectual theft and plagiarism in connection with two NSF proposals
and that overall he exhibited a pattern of such behavior.

        We recommended that NSF take the following actions to protect the federal government’s interest:
1) send a letter of reprimand to the subject informing him that NSF made a finding of misconduct in
science against him; and 2) require for 3 years that the subject submit signed certifications along with his
supervisor’s assurances that all NSF proposals contain properly attributed ideas. We suggested that
NSF coordinate its activities with the other federal agencies that received proposals from the engineer.


Plagiarized Material in a Computer Science Proposal

        We received an allegation that an assistant professor of computer science at an institution in
Illinois plagiarized material from a conference proceeding into an NSF proposal. We identified
approximately 50 lines of text and twographics in the assistant professor’s proposal that were identical
or substantially similar to material in the conference proceeding. The material appeared in the proposal
without attribution or distinction. The assistant professor told us that he “copied and paraphrased”
some of the material. We concluded that the allegation of plagiarism was substantive and deferred
further investigation to the assistant professor’s institution.

         The institution made a finding of misconduct in science against the assistant professor. The Vice
President and Chief Academic Officer sent him a letter of reprimand, notified him of the withdrawal of
all of his pending proposals, institutionally debarred him for 1 year, required the review of any requests
he intends to submit for external funding during the following year, and requested his participation in an
ethics training program. The institution’s investigation committee also suggested that the institution
establish a formal program for training graduate students and faculty, in particular new and junior faculty,
in matters of professional ethics.

        We reviewed the committee’s report and determined that the institution’s investigation was fair,
accurate, and thorough, and could be used in lieu of our own independent investigation. Based on the
committee’s report, we concluded that the assistant professor knowingly plagiarized material into his
NSF proposal. We recommended that NSF find that the assistant professor committed misconduct in
science, send him a letter of reprimand, and require for a period of 2 years that he submit certifications
and his department provide assurances to OIG that any documents he submits to NSF contain no
plagiarized material.




NSF                            Semiannual Report Number 23 · September 2000                             OIG
                                                  25
ACTIONS by NSF in
CONNECTION WITH two CASES
Biologist Misrepresented Publications and Fabricated Data

        In our September 1999 Semiannual Report (pages 17-18), we discussed the case of a biologist at
a North Carolina university who misrepresented his publication record and included fabricated data in his
funded NSF proposal. NSF’s Deputy Director sent the biologist a letter of reprimand, concluding that he
committed misconduct in science and debarred him for 1 year. NSF management also required that for the
next 3 years the biologist submit certifications to the OIG in connection with any proposals or reports he
submits to NSF that those documents do not violate NSF’s Misconduct in Science and Engineering regulation.
NSF also required that the scientist ensure that an appropriate supervisory official provide assurances that, to
the best of his/her knowledge, any proposals and reports submitted to NSF by the biologist do not contain
misrepresentations regarding the publication status of any manuscripts or any fabricated data.


NSF Requires Certification of Biohazard Review

        In our September 1999 Semiannual Report (page 19), we described our investigation into allegations
of misconduct in science stemming from a biologist’s alleged failure to notify his institution of his biohazardous
research. Our investigation concluded that both the biologist and the institution, a university in Michigan, failed
to provide reasonable oversight. We recommended that NSF take significant action to ensure the safe conduct
of NSF-supported biohazardous research by the biologist and the institution. We also recommended that the
university reimburse NSF $5,000 because a Research Experiences for Undergraduates (REU) supplement
was not used to support an undergraduate student but rather was used to purchase general research supplies.

       NSF agreed with our conclusions and took remedial action. For a period of 3 years, in connection
with any NSF-supported biohazardous research, the biologist must submit copies to the NSF program
supporting his research of any representations or promises he made to obtain biohazardous materials,
and documentation of his efforts to comply with his commitments. The biologist is also required to
submit documentation showing:

                 1) institutional approval and authorizations for his research;
                 2) that he posted notification in compliance with relevant regulations and policies that
                    biohazardous research is being conducted in his laboratories; and
                 3) that individuals are notified of the hazards associated with that research.

        For the same period, the institution is required to submit supporting documentation with any
NSF proposal that involves biohazardous research to specifically document its review and approval of
that research. Finally, the institution is required to reimburse NSF for the REU supplement funds.




NSF                              Semiannual Report Number 23 · September 2000                                  OIG
                                                    26
SIGNIFICANT ADMINISTRATIVE CASE ACTIVITY

Awardee’s Responsibility for Specimen-Collection Permits

        In our March 2000 Semiannual Report (page 30), we described the joint efforts of NSF’s Directorate
of Biological Sciences (BIO) and our office to clarify awardee obligations associated with specimen-related
research. Obtaining the proper permits for collecting specimens can be time consuming and confusing; however,
the permits are variously designed to protect endangered species, natural resources, flora or fauna, and ensure
respect for genetic resources, or cultural heritage. In response to the joint recommendations of BIO and OIG,
NSF’s Division of Grants and Agreements (DGA) promptly developed special language to be included in all
award letters for projects involving specimen collection activity. The new language states:

        The awardee shall ensure that award activities carried on both inside and outside the
        U.S. are coordinated, as necessary, with appropriate Government authorities, and that
        appropriate licenses, permits or approvals are obtained prior to undertaking proposed
        activities. . . . [The PI] shall provide a summary in each annual progress report and in
        the . . . final report, of all permits, licenses or other necessary approvals associated
        with specimen collection.

        DGA has incorporated the language into recent award letters and briefed the NSF divisions that
are affected most. It is also developing internal guidance to ensure that DGA staff notify awardees of
their permit-related responsibilities to help ensure that specimens collected by NSF-funded PIs are handled
in accordance with applicable laws.

        During this period, we inquired into an allegation that a Principal Investigator (PI) failed to
obtain the necessary collecting permits for the removal of nonendangered specimens from national and
state parks. We learned that the PI had obtained a permit for collection from national forest land, but
only oral permission from the state parks. The administrators of the state parks told us oral permission
is not sufficient and the PI should have obtained written permits. We asked the PI and his university’s
Authorized Organizational Representative (AOR) if the PI’s collection was in accordance with university
policy, and further suggested that they contact the various parks to determine an appropriate resolution
of the matter.

        The PI and AOR told us the university did not have an explicit policy regarding specimen collection.
However, the AOR said the university administration would meet to consider modifications to its Research
Policy Manual on this topic. The PI contacted the various parks explaining what had happened and
asked how he might rectify the situation. Because his specimens were not considered wildlife or an
endangered species, the park administrators only requested to know how many specimens he collected
and where he collected them. The PI explained that he is now fully aware of the permits he must obtain
for future collections and assured us he will obtain them.




NSF                             Semiannual Report Number 23 · September 2000                               OIG
                                                   27
The Importance of Accurate Information in Proposals

         We often receive allegations of improprieties associated with NSF proposals that raise concerns related
to the accuracy of information in Current and Pending Support, Budget, and Biographical sections. While the
information in these sections is not directly related to the proposed research, NSF’s Program Officers rely on
the accuracy of such information to make sound funding decisions. For example, Program Officers need
accurate, current and pending support information to assess whether the PI can reasonably commit the required
time and effort to the project, to check for similarly funded research, and to review requests for summer salary
support on the PI’s various awards. We typically refer these issues to NSF management. However, in
egregious cases, we have pursued allegations that resulted in findings of misconduct by NSF (e.g., see page
26). Below, we discuss four recent cases that illustrate these issues and their resolution.

         In one case, a PI allegedly misrepresented her role as the editor of a publication listed in an NSF
proposal. We determined that the PI had editorial responsibility with regard to the publication, but
another scientist had actually served as the editor. We concluded that the PI exaggerated her role when
she cited herself as editor. We also concluded that the exaggeration was not a serious deviation from
accepted practices because she had been involved in the editorial process. We contacted the PI to
discuss our concerns about her citation, and she agreed to be more careful when citing her role in this
effort in future proposals.

        In another case, a PI allegedly misrepresented the access he would have to equipment critical to
the success of an NSF award due to the expiration of a loan agreement, which the PI failed to disclose
to NSF. In correspondence with us, the PI stated that he decided not to return the equipment on
schedule and could replace it if necessary. At our suggestion, the Program Officer explicitly informed
the PI and the institution’s AOR of NSF’s expectations regarding the PI’s continued access to such
equipment.

        In a third case, a Program Officer informed us that a PI allegedly failed to properly describe his
current and pending support in two proposals simultaneously submitted to NSF. According to this
division’s practice, the handling of such compliance issues is delegated to Program Officers. The division
administrator told us that both proposals were likely to be declined on scientific merit and the pursuant
declination letter could include a reference to the importance of proper acknowledgement of current and
pending support. The letter told the PI that a “failure to follow the GPG guidelines is grounds for
rejecting a proposal without review.” We recommended that he follow this course of action.

       The last case is another example of a researcher’s lack of attention to current and pending
support requirements. NSF received two proposals from different universities under one program
announcement. A Co-PI on both proposals failed to disclose his dual participation in both sets of his
Current and Pending Forms. A Program Officer learned of this problem during a site visit and questioned
the Co-PI about his involvement with each proposal. The Co-PI told the Program Officer that if the
two proposals were funded he intended to integrate his responsibilities. Administrators at one of the
universities were unaware of the Co-PI’s proposed dual obligations. At a meeting between university
representatives, the Co-PI, and NSF staff, one of the university’s representatives ensured the researcher’s
commitments would be met by him or other faculty. The Program Officer was satisfied with this resolution.




NSF                             Semiannual Report Number 23 · September 2000                                OIG
                                                   28
       We encourage awardees and PIs to carefully review all information submitted to NSF. Accuracy
helps assure fair evaluation of proposals and reduces the number of concerns about potential
misrepresentation or other wrongdoing.


ISSUES INVOLVING CIVIL
and CRIMINAL ALLEGATIONS
Computer Intrusions

OIG Participation in NSF’s Computer Incident Response Team

       NSF began the conversion from traditional paper documents to electronic systems in 1994. This
conversion included the creation of the internal Proposal, PI, and Reviewer System (PARS) and FastLane,
                                      NSF’s electronic system designed to facilitate programmatic and financial
                                      transactions and the exchange of information about NSF’s programs
                                      and awards between NSF and its client community via the internet.
                                      NSF has also improved the utility of its web sites to provide more
                                      comprehensive public access to information about NSF and NSF grants
                                      and publications. Notwithstanding these improvements, NSF’s increased
                                      reliance on electronic systems presents a risk of loss, misuse, or
                                      unauthorized modification of the critical computer infrastructure and
                                      confidential information.

                                       This problem is not unique to NSF and in recent years the federal
government has issued several directives emphasizing the importance of protecting critical computer
infrastructure and information. In conjunction with NSF’s Division of Information Services (DIS), OIG
organized a Computer Incident Response Team (CIRT). The primary purpose of OIG’s participation on
the CIRT is the collection and preservation of forensic evidence. DIS CIRT members focus on system
protection and continuation or restoration of service. In addition to responding to attacks on NSF’s
electronic infrastructure, the CIRT handles incidents in which NSF’s computers and networks are alleged
to be the instruments, or contain evidence, of criminal behavior. The CIRT procedures do not apply to
the routine handling of general computer viruses or spamming (junk e-mail, unsolicited advertising and
promotional messages) that fall short of a denial-of-service attacks (an attempt to flood a computer
network, thereby preventing legitimate network traffic). Through OIG, CIRT coordinates its efforts
with other law enforcement entities and reports all significant computer intrusions to the Federal Computer
Incident Response Capability (FedCIRC). FedCIRC is a central coordination and analysis facility dealing
with computer security related issues affecting the civilian agencies and departments of the federal
government. During this period, NSF’s CIRT responded to several significant computer incidents that
have helped us refine and test our procedures.


Attacks Involving the Computer Help Desk

        NSF Help Desk personnel received a report that NSF’s Division of Administrative Services
(DAS) employees could not access their local area network (LAN) printers. In responding to this
report, NSF technicians discovered an alteration to a critical command line in the network logon program.
NSF                             Semiannual Report Number 23 · September 2000                               OIG
                                                   29
         In the same general time frame, NSF’s Division of Information Systems (DIS) personnel experienced
a similar problem. Once again, NSF technicians discovered an altered command line. A week after these
problems were reported, Help Desk personnel began to experience problems with the password change menu
selection on the Help Desk LAN menu. NSF technicians discovered that a program on the Help Desk menu
was replaced with a different program that contained a destructive command to reformat (erase) the user’s
hard drive. This program failed to work because the command was written incorrectly. A week later, Help
Desk personnel were alerted that personnel in OIG lost access to their LAN printers. It appeared that
someone erased all of the printer directory files on OIG’s LAN server. Computer security event logs revealed
a series of Help Desk LAN accounts being accessed via a remote dial-in connection during the time frame of
these file changes. In response to these computer intrusions, OIG formally requested the technical and forensic
computer expertise of the United States Postal Service’s Office of Inspector General (USPS OIG). NSF
OIG and USPS OIG Special Agents conducted interviews with DIS staff members and Help Desk contract
employees, and secured information from an internet service provider. However, OIG could not obtain definitive
evidence linking the intrusions to anyone and the case was closed.


Employee’s Unauthorized Access to Computers

         Our office learned that an employee in NSF’s Directorate for Education and Human Resources
(EHR) established unauthorized shared access with the hard drives of several division computers, including
the office computer of an EHR Division Director. Based on this and prior behavior by the employee, the EHR
Division Director terminated the employee. The NSF CIRT severed the
unauthorized connections between the affected computers and searched these
computers for evidence of illegal activity. The CIRT found a compressed
virus generator program on the employee’s computer, but no evidence the
employee ever installed or launched this program. Because our office
discovered no illegal activity, this case was closed.


Additional Intrusions in the South Pole Station Network

        The Office of Polar Programs (OPP) notified OIG that intruders
had accessed computer network servers at the United States Antarctic
Program (USAP) South Pole station. As with the intrusions described in
our March 2000 Semiannual Report (page 23), these unauthorized activities
could have compromised user accounts and passwords at the USAP station
and allowed unauthorized access to proprietary scientific data.

        While OPP has overall administrative responsibility for the USAP, network administration and
other information technology operations for the USAP are included as part of the USAP contractor’s
duties. The new USAP contractor restored the compromised systems to operation and is undertaking
an effort to safeguard them from further intrusions. These safeguards will address the recommendation
for enhanced security made in connection with prior intrusions. The OIG could not determine the
source of the attack, and the case was closed.




NSF                             Semiannual Report Number 23 · September 2000                               OIG
                                                   30
                                                                                  Remedial Measures

                                                                         As a result of the annual computer
                                                               security audits performed as part of the Chief
                                                               Financial Officer’s audit, and recom-
                                                               mendations by OIG based on recent cases,
                                                               NSF implemented several measures to
                                                               increase the security of its computer
                                                               infrastructure. These security measures
                                                               included significant password protocol
                                                               changes at the NSF Help Desk and a DIS
                                                               project to remove the names and passwords
                                                               of all former NSF employees.

                                                                        Additionally, NSF implemented
electronic warning banners on all applicable systems to alert users to the fact that they are using a federal
government computer system and unauthorized use violates federal law. Users will be informed that
attempts to abuse the system are subject to disciplinary action or criminal prosecution. Users of the
FastLane system for electronic submission of grant proposals to NSF will be told that information
provided through that system is confidential, and in order to protect that information, NSF may monitor
activity on the system. Finally, NSF staff and contractors accessing the computer systems within NSF
will be reminded that they are using federal government computers and all files and traffic on these
systems are subject to review by authorized officials. These banners will facilitate the investigation and
prosecution of those who use NSF’s computer systems for illegal activities.


NSF Employee Pleads Guilty to Conversion of Government Property

        In our March 2000 Semiannual Report (page 22), we discussed a case involving an NSF employee
who used government purchase cards to buy items for personal use. Our investigation revealed that the
employee used the government purchase cards to buy over $10,000 in personal goods and services,
including sports equipment, memberships to internet sites, and the services of a law firm. He was
terminated from government service.

       We worked with the U.S. Attorney who prosecuted the case. The employee was charged with
one count of Conversion of U.S. Government Property, 18 U.S.C. § 641. In July 2000, the employee
pled guilty and was sentenced to 3-years probation, and ordered to make full restitution to NSF in the
amount of $10,475.

         Subsequently, the NSF directorate where the employee worked asked OIG to perform an audit
of its use of purchase cards. The results of that review are described on page 4 of this semiannual.




NSF                          Semiannual Report Number 23 · September 2000                                OIG
                                                 31
Geologists Misuse Grant Funds

        Our investigation of two geology professors at a Florida university revealed that they improperly
spent a combined total of $20,007.56 from their NSF grants. This amount included unauthorized
reimbursements related to travel and per diem expenses. The two geology professors failed to disclose
the required financial information to their university as required for NSF grant proposals, an apparent
omission of material fact under 18 U.S.C. § 1001. The geology professors also filed false and duplicative
claims for travel in an apparent violation of 18 U.S.C. § 666 and § 287. The fraudulent claims requested
reimbursement from NSF for consulting work performed on behalf of multinational mineral exploration
corporations, for expenses incurred during personal travel to Greece, and for a business trip to Australia.
We referred this case to the U.S. Attorney’s Office in Florida for its consideration.



CHARACTERISTICS
of CASES CLOSED THIS PERIOD
Summary of Case Activity for this Period

        We receive allegations of wrongdoing from a variety of sources such as NSF staff, merit reviewers,
scientists, engineers, graduate students, and institution officials. We review each allegation for substance,
including those we receive anonymously, and classify them as either Preliminary, Administrative (which
includes research misconduct violations), or Civil/Criminal cases. Preliminary cases are typically closed
within 2 months or if supported by sufficient evidence converted into Administrative or Civil/Criminal
cases.

      We received 56 allegations. 31 of these were classified as Preliminary, 15 as Administrative, and
10 as Civil/Criminal cases. We closed 19 Preliminary cases and converted 6 others into either
Administrative (4) or Civil/Criminal (2) cases.

       We closed two Administrative cases after investigations. A finding of misconduct in science was
made in one of these cases and NSF’s Deputy Director took action consistent with our recommendations,
(see pages 24 and 25). The other investigation resulted in a PI and awardee being required by NSF to take
remedial action for their failure to provide adequate oversight, (see page 28).

         We closed 24 Administrative cases at the inquiry stage. These cases involved subjects at public
colleges and universities (18), private universities (2), a government agency (1), private industry (2),
and a scientific journal (1). The primary allegations included false statements or other misrepresentations
(5), plagiarism (5), failure to cite (3), breach of confidentiality of peer review (3), discrimination (2),
falsification of data (1), and duplicate publications (1). Subjects’ fields included biology, physics, behavioral
science, engineering, geology, mathematics, chemistry, and education. We contacted subjects in 13 of
these cases and we requested expert opinions four times.

       Other Administrative case actions included deferring one inquiry and one investigation to awardees
and forwarding the results of two investigations to NSF’s Deputy Director for adjudication.


NSF                             Semiannual Report Number 23 · September 2000                                 OIG
                                                   32
         We also closed 22 Civil/Criminal cases that involved allegations such as diversion of funds (4),
false statements or claims (7), conversion of government property (2), and computer intrusions (2). We
referred five cases to Department of Justice or state prosecutorial authorities.



OUTREACH EFFORTS - A                                     Bridge to Academia
Outreach Efforts to Promote Research Integrity

                                          Our liaison and outreach programs have been described in
                                     previous semiannual seports (March 2000, pages 16-17; September
                                     1999, pages 1-2; and March 1999, page ii). During this reporting
                                     period, we presented our seminar for Principal Investigators and
                                     Administrators at seven institutions and talked with groups of students
                                     at four institutions. We actively participated in a number of
                                     professional society meetings. In connection with past or current
                                     deferrals of investigations, we spoke with administrators at five
                                     universities to provide either technical advice or to seek feedback in
                                     order to improve our processes.

                                         We spoke with groups of faculty, researchers, and administrators
                                     in California, Washington, Ohio, Montana, and Massachusetts. We
                                     discussed the handling of allegations of research misconduct,
                                     described several case studies, and highlighted the similarities between
NSF policy and the proposed OSTP policy. Administrators and faculty were most interested in hearing
about the context in which ethical issues are raised and how cases are resolved. They also asked questions
about the investigation and deferral process, safeguards to protect subjects and complainants, and
confidentiality issues.

        Misconduct officials used this opportunity to disseminate their institutional policy and to answer
questions about their institution’s process and explain their roles. We believe that our outreach effort
builds awareness and trust in the institution’s process to resolve allegations.

        In group seminars to students in the D.C. metropolitan area, Ohio, Montana, and Massachusetts,
we discussed mentoring, collaborations and authorship disputes, peer review, data sharing, and data
collection issues. We found that seminar participants often ask about the proposal application process,
how their contributions to research are acknowledged, how authorship credit is negotiated, and what
happens when disputes in collaborations arise. In response, we provided basic information on the funding
process and discussed their ethical concerns in depth.

        We also spoke at the Society for Research Administrators’ regional meeting in Virginia Beach,
Virginia, and the Office of Research Integrity-American Association for the Advancement of Science
Practicum on Responding to Allegations of Research Misconduct in St. Charles, Illinois. We presented
briefings at two institutions in connection with the Office of Experimental Program to Stimulate
Competitive Research reviews and spoke to a group of NSF awardees at the Small Business Innovation
Research/Small Business Technology Transfer Grantees’ meeting for the Directorate for Engineering.


NSF                         Semiannual Report Number 23 · September 2000                                 OIG
                                                33
         We spoke to officials at several universities in connection with visits to assist with deferral investigations.
In these discussions, we emphasized the importance of meticulous inquiries and investigations, the importance
of thoughtful interpretations of the definition of misconduct, careful assessment of intent, and the application of
the preponderance of evidence standard. While we stressed the independence of the awardee and federal
efforts, we also explained that we rely on thorough awardee investigations to form the basis of our own
recommendations.

         We constantly solicit feedback in order to improve our deferral process. Recent improvements
include more specific guidance to committee members about assessing professional or financial conflict
of interests, more focused investigative questions, and reducing the reporting burden on institutional
officials.


Participation in Conference on Research Integrity

        Staff from the Office of Inspector General submitted abstracts for two poster sessions at the
Research Conference on Research Integrity scheduled for November 18-20, 2000. This conference,
sponsored by the United States Department of Health and Human Services, Office of Research Integrity,
will consider “the emerging challenges for the responsible conduct of research.” One poster will detail
our external outreach program for university administrators, principal investigators and graduate students
(see our March 2000 Semiannual Report, page 16). This poster seeks suggestions from members of the
research community about possible improvements to our outreach program. The second poster addresses
the issue of duplicate publications, as discussed in our March 2000 Semiannual Report (pages 18-19).
This poster presents a mock version of two nearly identical manuscripts in order to gain a better
understanding of various research communittees’ expectations in regard to duplicate publications.


REVIEWS: INVESTIGATIVE FOLLOW ON
Research Experiences for Undergraduates Supplements
       We sought to assess the effectiveness of Research Experience for Undergraduates supplements
in meeting the programs’ stated goal of providing “appropriate and valuable educational experiences for
undergraduate students through research participation”(NSF 00-107). We reviewed a sample of REU
supplements awarded in a Directorate during Fiscal Year 1999 against three basic criteria: acceptability
of expenditures, citizenship eligibility of participants, and quality of experiences reported by participants.

        While we found no evidence of financial impropriety or abuse of citizenship eligibility requirements,
we are not yet in a position to accurately assess the quality of the participants’ experiences because
student turnover made it extremely difficult to obtain meaningful information. As a result, we recommended
that NSF consider the benefits of implementing a formal requirement for PIs and students to provide a
qualitative assessment of the students’ research experience.

       Additionally, we noted some problems regarding the citizenship/permanent residency requirement
for REU Supplement recipients. Furthermore, we suggested to NSF that it consider appointing an NSF-
wide coordinator for the REU Program. Our recommendations were forwarded to NSF management
for consideration.


NSF                               Semiannual Report Number 23 · September 2000                                     OIG
                                                     34
Assessment of Jacket Retirement System

        In connection with our assessment of the accuracy of PI publications in final project reports,
which we reported in our March 2000 Semiannual Report (page 28), we found that approximately 20
percent of archived award jackets we requested could not be retrieved through NSF’s records management
system. During this period, we worked with the Division of Administrative Services (DAS) as it developed
a plan to evaluate and correct this problem. We learned that the difficulties in retrieving archived jackets
could not be eliminated by simply improving DAS’s retrieval/accession system. Successfully tracking
retirement-eligible jackets requires careful coordination between NSF program offices and DAS. When
NSF programs retain retirement-eligible jackets, DAS has no administrative control over those jackets.
DAS provided an NSF-wide training refresher on proposal retirement for Administrative Officers. DAS
management is also enhancing the records retrieval system to ensure better tracking and retrieval rates.

       DAS has proposed a 6-month timeline for implementing these enhancements. Once the new
system enhancements are complete, we will test for reliability and retrieval rate.


Conflict-of-Interests Policies at NSF Engineering Research Centers
         In recent conversations with scientists and professional societies, we have been asked for advice
on how to assess conflict of interests (COI) issues. NSF supports several programs such as Engineering
Research Centers (ERCs) that foster close working relationships between private industry and federally
funded researchers. By focusing our analysis on ERCs’ COI policies, we were able to assess the scope
of the issues pertinent to reducing potential conflicts. We analyzed COI policies from a number of NSF
ERCs and spoke with knowledgeable individuals.

        There are 21 interdisciplinary ERC centers throughout the United States. They provide an
integrated environment for private industry and academic researchers to study and design complex
engineering systems. Several NSF ERCs include collaborations between multiple universities and
international industrial partners.

         NSF regulations require all ERCs to develop and enforce a COI policy requiring disclosure of all
significant financial interests that would reasonably appear to be affected by the research or educational
activities funded or proposed for funding by NSF; or in entities whose financial interests would reasonably
appear to be affected by such activities.

        We compared key terms (including COI, conflict of commitments, and immediate family), levels
of guidance, and procedures for managing COI. We found significant differences in definitions and
levels of guidance. Several ERC policies did not provide definitions for critical terms. In addition, the
procedures for managing COIs differed across the ERC policies.

        We have received requests from many investigators for additional guidance on resolving COI
issues. We hope our effort will enable us to provide informed guidance to investigators and universities.




NSF                            Semiannual Report Number 23 · September 2000                             OIG
                                                  35
      Statistical Data

Audit Reports Issued
With Recommendations for Better use of Funds      38

Audit Reports Issued With Questioned Costs        39

Additional Performance Measures                   40
                   Highlights
Audit Reports Involving Cost-Sharing Shortfalls   41

Status of Systemic Recommendations
That Involve Internal NSF Management              42

List of Reports                                   43

Audit Reports With
Outstanding Management Decisions                  46

Investigative Activity and Statistics             47

Misconduct Case Activity
and Assurances/Certifications Received            48

Acronyms                                          49




                           37
AUDIT REPORTS
ISSUED WITH RECOMMENDATIONS
for BETTER use of FUNDS
                                                                        Dollar Value

A.    For which no management decision has been made by the                 100,000
      commencement of the reporting period


B.    Recommendations that were issued during the reporting period                0



C.    Adjustments related to prior recommendations                          300,000


Subtotal of A+B+C                                                           400,000


D.    For which a management decision was made during the                   400,000
      reporting period


      (i) dollar value of management decisions that were consistent         400,000
          with OIG recommendations


      (ii) dollar value of recommendations that were not agreed                   0
           to by management


E.    For which no management decision had been made by the end of                0
      the reporting period


For which no management decision was made within 6 months of issuance             0




NSF                    Semiannual Report Number 23 · September 2000             OIG
                                            38
AUDIT REPORTS
ISSUED WITH QUESTIONED COSTS

                                                     Number         Questioned    Unsupported
                                                    of Reports       Costs           Costs



A.     For which no management decision has             11           2,022,750         314,987
       been made by the commencement of the
       reporting period


B.     That were issued during the reporting            21           6,007,044        2,886,525
       period


C.     Adjustment related to prior recommendations      (1)          (641,129)                  0


Subtotal of A+B+C                                       31           7,388,665        3,201,512


D.     For which a management decision was              13           1,388,129         314,987
       made during the reporting period


           (i) dollar value of disallowed costs       N/A             539,472              N/A


       (ii) dollar value of costs not disallowed      N/A             848,657              N/A


E.     For which no management decision had             18           6,000,536        2,886,525
       been made by the end of the reporting
       period


For which no management decision was made                0                    0                 0
within 6 months of issuance




     NSF                       Semiannual Report Number 23 · September 2000              OIG
                                                    39
ADDITIONAL
PERFORMANCE MEASURES
       As required by the Inspector General Act of 1978, we provide tables in each Semiannual Report to
the Congress that give statistical information on work conducted by our audit and investigation units.
        The General Accounting Office and OMB suggested that Offices of Inspector General develop addi-
tional performance measures that provide information about their activities. As a result, we developed two
additional performance measures to provide additional insights about the work of our office. The two addi-
tional measures are “Cost-Sharing Shortfalls” and “Systemic Recommendations.”

        COST-SHARING SHORTFALLS—NSF seeks to leverage its resources by acting as a catalyst,
promoting partnerships, and, in some cases, obligating grantees to contribute substantial non-federal resources
to a project. When NSF award documents require substantial cost sharing, we seek to determine whether
grantees are in fact providing promised resources from non-federal sources.

        We divide cost-sharing shortfalls into two categories. Shortfalls occurring during the life of a project
indicate that the grantee may not be able to provide all promised resources from non-federal sources before
completing the project. Shortfalls that remain when a project is complete demonstrate that a grantee has in fact
not met cost-sharing obligations; these findings result in formal questioned costs. The table on page 41 pro-
vides statistical information about shortfalls occurring during the course of a project and at the completion of
the project.

        SYSTEMIC RECOMMENDATIONS—OIG staff members regularly review NSF’s internal op-
erations. These reviews often result in systemic recommendations that are designed to improve the economy
and efficiency of NSF operations.

        We routinely track these systemic recommendations and report to NSF’s Director and Deputy Direc-
tor quarterly about the status of our recommendations. The table on page 42 provides statistical information
about the status of all systemic recommendations that involve NSF’s internal operations.




NSF                        Semiannual Report Number 23 · September 2000                                    OIG
                                                40
AUDIT REPORTS
INVOLVING COST-SHARING SHORTFALLS


                                             Number    Cost-Sharing          At Risk of         Cost-Sharing
                                               of       Promised            Cost-Sharing        Shortfalls at
                                             Reports                         Shortfall/       Completion of the
                                                                          (Ongoing Project)       Project

A. Reports with monetary findings for
   which no management decision
   has been made by the beginning of
   the reporting period                          3          987,061               619,144            239,980

B. Reports with monetary findings
   that were issued during the
   reporting period                              9        24,383,764            10,388,386          2,456,509

C. Adjustments related to prior
   recommendations                              N/A                   0                 0                   0

Total of Reports With Cost-Sharing
Findings (A+B+C)                                12        25,370,825           11,007,530           2,696,489

D. For which a management decision
   was made during the reporting period          3          987,061

    1. Dollar value of cost-sharing short-
       fall that grantee agreed to provide      N/A             N/A              584,584                    0
    2. Dollar value of cost-sharing short-
       fall that management waived              N/A             N/A                34,560            239,980


E. Reports with monetary findings for
   which no management decision has
   been made by the end of the
   reporting period                              9        24,383,764           10,388,386           2,456,509




       NSF                        Semiannual Report Number 23 · September 2000                           OIG
                                                       41
STATUS of SYSTEMIC RECOMMENDATIONS
THAT INVOLVE INTERNAL NSF MANAGEMENT

Open Recommendations
          Recommendations Open at the Beginning
          of the Reporting Period                                                         1
          New Recommendations Made During
          Reporting Period                                                              11

          Total Recommendations to be Addressed                                         12


Management Resolution of Recommendations1
          Awaiting Resolution                                                            11
          Resolved Consistent With OIG Recommendations                                    1


Management Decision That No Action is Required                                            0


Final Action on OIG Recommendations
          Final Action Completed                                                         0
          Recommendations Open at End of Period                                         12


Aging of Open Recommendations
          Awaiting Management Resolution:
                 0 through 6 Months                                                      11
                 7 through 12 Months                                                      0
                 more than 12 Months                                                      0


Awaiting Final Action After Resolution2
                  0 through 6 Months                                                      1
                  7 through 12 Months                                                     0
                  13 through 18 Months                                                    0

1
    “Management Resolution” occurs when management completes its evaluation of an OIG recommendation and issues
     its official response identifying the specific action that will be implemented in response to the recommendation.
2
    “Final Action” occurs when management has completed all actions it decided are appropriate to address an
     OIG recommendation.



NSF                           Semiannual Report Number 23 · September 2000                                       OIG
                                                   42
LIST of REPORTS
NSF and CPA Performed Reviews


Report                               Questioned    Unsupported     Better Use Cost Sharing
Number    Subject                    Costs         Costs           of Funds   At-Risk



00-1009   Science Center                 182,678        34,604             0            0
00-1010   Board of Education             969,738       969,383             0   10,139,862
00-1011   Science Academy                      0             0             0            0
00-1012   Research Center                  4,997             0             0            0
00-1013   Center                               0             0             0            0
00-1014   University                           0             0             0      248,524
00-1015   University                     271,440             0             0            0
00-1016   University                      34,015        34,015             0            0
00-1017   Educational Asoc.              445,742             0             0            0
00-1018   Institute                       82,802         9,042             0            0
00-1019   Public School System         2,852,914     1,815,448             0            0
00-1020   Experiment Station              86,854        26,033             0            0
00-1021   Math Institute                 121,095             0             0            0
00-2006   Project                              0             0             0            0
00-2007   Air Force Base                 109,860             0             0            0
00-2008   Purchase Card Use                    0             0             0            0
00-6008   Contractor                     641,129             0             0            0
00-6009   Center                               0             0             0            0
00-6010   University Center               65,351             0             0            0

          Total                        5,868,615     2,888,525             0   10,388,386




NSF                 Semiannual Report Number 23 · September 2000                     OIG
                                         43
LIST of REPORTS
                        NSF-Cognizant Reports



Report                                Questioned          Unsupported   Cost Sharing
Number    Subject                     Costs               Costs         At-Risk

00-4011   Society                              0                   0               0
00-4012   College                              0                   0               0
00-4013   Learning Center                      0                   0               0
00-4014   Association                          0                   0               0
00-4015   Teachers Council                     0                   0               0
00-4016   Higher Education                     0                   0               0
00-4017   Researc Institute                    0                   0               0
00-4018   Television Company                   0                   0               0
00-4019   Foundation                           0                   0               0


          Total                                0                   0               0




NSF                 Semiannual Report Number 23 · September 2000             OIG
                                         44
LIST of REPORTS


                       Other Federal Audits

Report                                Questioned         Unsupported   Cost Sharing
Number    Subject                     Costs                    Costs   At-Risk

00-5045   University                       15,558              0              N/A
00-5059   State                            13,438              0              N/A
00-5060   University                        3,239              0              N/A
00-5066   College                          56,383              0              N/A
00-5067   University                          179              0              N/A
00-5073   College                           3,090              0              N/A
00-5082   State                             1,018              0              N/A
00-5083   Public School System             45,524              0              N/A



          Total                           138,429              0                   0




NSF                 Semiannual Report Number 23 · September 2000             OIG
                                         45
AUDIT REPORTS
WITH OUTSTANDING MANAGEMENT DECISIONS
         This section identifies audit reports involving questioned costs, funds put to better use, and cost sharing
at risk where management had not made a final decision on the corrective action necessary for report resolu-
tion within 6 months of the report’s issue date. At the end of the reporting period, there were no reports or
items remaining open for a period longer than six months. All twelve reports remaining open at the end of the
last reporting period have been closed. The status of systemic recommendations that involve internal NSF
management are described on page 42.




NSF                         Semiannual Report Number 23 · September 2000                                       OIG
                                                 46
INVESTIGATIVE ACTIVITY and STATISTICS


I nvestigative Activity                                              I nvestigative Statistics

Active Cases From Previous                                           New Referrals                                0
Reporting Period                           35
                                                                     Referrals From Previous
New Allegations                            12                        Reporting Period                             0

Total Cases                                47                        Indictments (including
                                                                     criminal complaints)                         2
Total Cases Closed                         23
                                                                     Criminal Convictions/Pleas                   2
Active Cases                               24
                                                                     Civil Settlements                            0

                                                                     Civil Complaints                             0

                                                                     Administrative Actions                       1

                                                                     Investigative Recoveries*            $15,475




 *Investigative recoveries comprise civil penalties, criminal fines, and restitutions as well as specific cost
  savings for the government.




 NSF                       Semiannual Report Number 23 · September 2000                                          OIG
                                                47
MISCONDUCT CASE ACTIVITY and
ASSURANCE/CERTIFICATIONS RECEIVED

                                     Misconduct Case Activity
                                                                     FY 2000                                FY 2000
                                                                     First Half                             Last Half

Active Cases From Prior Period                                           49                                      37
Received During Period                                                   25                                      19
Closed Out During Period                                                 37                                      26
In-Process at End of Period                                              37                                      30

Cases Forwarded to the Office of the
Director During Period for Adjudication                                   1                                        2

Cases Reported in Prior Periods With No
Adjudication by the Office of the Director                                2*                                       1**



*These cases are described in our September 1999 Semiannual Report, pages 17-18 and 19-21.

**This case is described in our March 2000 Semiannual Report, pages 19-20.




                              Assurances and Certifications *

Number of Cases Requiring Assurances at End of Period                                             6
Number of Cases Requiring Certifications at End of Period                                        10**
Assurances Received During This Period                                                            0
Certifications Received During This Period                                                        0
Number of Debarments in Effect at the End of Period                                               0


*NSF accompanies some findings of misconduct in science with a certification and/or assurance requirement. For a specified
period, the subject must confidentially submit to the Associate Inspector General for Scientific Integrity a personal certification
and/or institutional assurance that any newly submitted NSF proposal does not contain anything that violates NSF’s regulation on
misconduct in science and engineering. These certifications and assurances remain in OIG and are not known to, or available to,
NSF program officials.

**One of these cases is described on page 26. It ultimately was not considered a misconduct case.




NSF                              Semiannual Report Number 23 · September 2000                                                   OIG
                                                      48
                  ACRONYMS
 AOR       Authorized Organizational Representative
 BIO       Directorate for Biological Sciences
 CFO       Chief Financial Officer
 CIRT      Computer Incident Responce Team
 CPA       Certified Public Accountant
 COI       Conflict of Interests
 COV       Committee of Visitors
 CPO       Division of Contracts, Policy, and Oversight
 DARPA     Defense Advanced Research Projects Agency
 DAS       Division of Administration Services
 DGA       Division of Grants and Agreements
 DIS       Division of Information Systems
 DOD       Department of Defense
 DOE       Department of Energy
 DOJ       Department of Justice
 ECIE      Executive Council on Integrity and Efficiency
 EHR       Directorate for Education and Human Resources
 EPSCoR    Experimental Program to Stimulate Competitive Research
 FedCIRT   Federal Computer Incident Response Team
 FY        Fiscal Year
 GPRA      Government Performance and Results Act
 ISP       Internet Service Provider
 LAN       Local Area Network
 MOU       Memoranda of Understanding
 NSB       National Science Board




NSF        Semiannual Report Number 23 · September 2000     OIG
                               49
                    ACRONYMS
ODP        Ocean Drilling Program
OGC        Office of General Counsel
OPP        Office of Polar Programs
OSTP       Office of Science and Technology Policy
PARS       Proposal, PI, and Reviewer System
PCIE       President’s Council on Integrity and Efficiency
PI         Principal Investigator
PP&E       Property, Plant, and Equipment
REU        Research Experiences for Undergraduates
SBIR       Small Business Innovation Research
SGER       Small Grants for Exploratory Research
SPAWAR     Space and Naval Warfare Systems Center
SPSE       South Pole Safety and Environmental
SPSM       South Pole Station Modernization
STC        Science and Technology Center
USAP       United States Antarctic Program
USPS OIG   United States Postal Service Office of Inspector General
USI        Urban Systemic Initiative




NSF         Semiannual Report Number 23 · September 2000         OIG
                                50
     For additional copies or information write

             Office of Inspector General
             National Science Foundation
          4201 Wilson Boulevard, Suite 1135
                Arlington, VA 22230

                visit our new web site

                     oig.nsf.gov

                         call

                   (703) 292-7100

our report and strategic plan are available on the web

    www.nsf.gov/cgi-bin/getpub?oigseptember2000
           www.nsf.gov/oig/stratplan.pdf
                      use our
              electronic mail hotline

                     oig@nsf.gov

                      or call
                 anonymous hotline

                   1-800-428-2189

             for outreach presentations
                     E-Mail Us

                oig-outreach@nsf.gov
Office of Inspector General
National Science Foundation
  September 2000
